FROM: '
TO: _ _
,
SUBJECT: page 1
DATE: 05/28/2021 08:43:52 AM

No. 20-7689

IN THE SUPREME COURT OF THE UNITED STATES

NERVE WILMORE JR. ,
Petitioner,
V.
United States of America,
Respondent,

On petition for Rehearing of the certiorari
to the United States Court of Appeals
For the Eleventh Circuit

Nerve Wilmore, Jr.
Pro Se Petitioner
Reg. No. 02634-104
Coleman Federal Correction Complex
Satellite Camp, Unit Fl
P.O. Box 1027
Coleman, FL 33521

RECEIVED
JUN - 8 2021
OFFICE OF THE CLERK
suPREME COURT U.S.

FROM.. _ _
TO:
SUBJECT: QUESTIONS PRESENTED
DATE: 05/28/2021 08:45:32 AM
Questions Presented
Federal Rules of Civil Procedure 60(b)(6) perm

its a court to re-open a judgment for any othe

relief. However Judicial precedent holds that
relief

r reason that justifies

under Rule 60(b)(6)is available in only extra

ordinary circumstances. In

determining whether extraordinary circumsta

nces are present, a court may consider a wide

include, in appropriate cases, the risk of injus
tice

to the parties and the risk of undermining the

judicial process. In this instant case, that issue
that
fact that the District Courts misconstructions

range of factors. These may

risks undermining the publics confidence in

publics confidence in the
the judicial process, is the

is preventing the petitioner from obtaining habe

as relief. Because the

Petitioners Motion to Vacate his sentence purs

uant to 28 U.S.C. 2255 Presents a meritorio

us Ineffective Assistance of

Counsel claim, which demonstrates his actua

l innocence. This issue raises the following ques

tions:

1) Whether Federal Rules of Civil Procedure

60(b)(6) provides relief for a judgment that occu

District Courts misconstruction of a meritorio

us Ineffective Assistance of Counsel claim whic

rred as a result of a

Actual Innocence in the Petition to Vacate the

h demonstrates the Petitioners

Sentence pursuant to 28 U.S.C. 2255 ?

FROM:
TO:
.
SUBJECT: CERTIFICATE OF INTERES
TED PERSONS
DATE: 05/27/2021 11:39:28 AM
Nerve Wilmore, Jr. v. United States
Case No. 20-7689
CERTIFICATE OF INTERESTED PERSON
S
As required by Rule 29.6
United States of America, Appellee.
Wilfredo Ferrer, former United States attor

ney

Jack A. Fleishman, attorney for Petitione

r on Direct appeal for criminal case

Sidney Z. Fleishman, attorney at trial leve

l for Petitioner

Solicitor General of the Department of Just
ice
Bejamin C. Greenburg, United States attor
ney
Delvin Jean-Baptiste, Co-Defendent at

at Direct appeal level

trial

Neil Karadbil, AUSA counsel for Governm

ent at trial

Robin S. RoSenbaum, United States App

ellate Court Judge for the 11th Circuit

Gregory Tortella, AUSA counsel for the

Government at trial

Patrick A. White, Magistrate Judge, Unit

ed States District Court (retired)

Charles Wilson, United States Appellate
Nerve Wilmore, Jr. , Petitioner/movant

Court Judge for the 11th Circuit

FROM:
TO:
_
SUBJECT: TABLE OF CONTENTS
DATE: 05/28/2021 08:46:39 AM
TABLE OF CONTENTS
Questions Presented
Certificate of Interested Persons

ii

Table of Contents

iii

Opinions Below

iv

Jurisdiction

iv

Constitutional and Statutory provisions involved..... v
60(b) Rules

1

Table of Authorities

2

Statement of the Case

3

Reasons for granting Writ

4

Conclusion

5

Certificate

6

Verification

6

Proof of Service

7
INDEX TO APPENDICES.

APPENDIX A - District Court Analysis. See record (cv-doc.79, pp. 1-4)
APPENDIX B - Claim one of 2255 petition. See record (cv-doc.1, pp.1,4)
APPENDIX C - Magistrate Judge's report. See record (cv-doc.42, pp.1-20)
APPENDIX D - Eleventh Circuit Court of Appeals order denying C.O.A.

111

FROM:
TO:
SUBJECT: OPINIONS BELOW
DATE: 05/28/2021 08:47:57 AM
Petitioner respectfully prays that a Writ of Certiorari issue to review the judgement below.
OPINIONS BELOW
{ X } For cases from Federal Court :
The opinion of the United States Court of Appeals appears at APPENDIX D to the petition and is
{ x } is unpublished
The opinion of the United States District Court appears at APPENDIX A to the petition and is
{ x } is unpublished
JURISDICTION
{ x } For cases from Federal Courts :
The date on which the Supreme Court of the United States decided my case was 5/17/2021.
The Jurisdiction of this Court is invoked under 28 U.S.C. 1254 (1).
The Supreme Court of the United States Denied the initial petition on 5/17/2021. This petition for a re-hearing of the Writ
of Certiorari is timely filed.

FROM:
TO:
SUBJECT: CONSTITUTIONAL AND STATUTORY PROVISIONS
DATE: 05/28/2021 08:49:14 AM
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Pages

Constitutional Provisions :
Article 1. Section 9, clause 2 (suspension clause). "The privilege of the writ of the Habeus Corpus shall not be
suspeneded
unless when in cases of Rebellion or Invasion the public safety may require it."

5

Statutory Provisions :
Title 28 U.S.C. 2255
(a) A prisoner in custody under sentence of a court established by Act of Congress claiming the right to be released upon the
ground that the sentence was imposed in violation of the Constitution or laws of the United States, or that the court was
without jurisdiction to impose such sentence, or that the sentence was in the excess of the maximum authorized by law, or
is otherwise subject to collateral attack, may move the court which imposed the sentence to vacate, set aside or correct the
sentence.
Passim

FROM: ,
TO:
SUBJECT: RULES INVOLVED
DATE: 05/28/2021 08:50:03 AM
RULES INVOLVED

RULE 60. RELIEF FROM A JUDGEMENT OR ORDER

Pages

(b) Grounds fora relief from a final judgement, order, or proceeding.
On motion and just terms, the court may relieve a party or its legal representatives from a final judgement, order, or
proceeding for the following reasons :
(6) Any other reason that justifies relief.
Passim

FROM'
TO:
SUBJECT: TABLE OF AUTHORITIES
DATE: 05/28/2021 08:51:23 AM
TABLE OF AUTHORITIES

Pages

Buck v. Davis , 137 s. ct.759, 777-78 (2017)

5

Defense Distributed v. United States Department of State, 947 F.3d 870; (5th Cir.)(2020)
Gonzalez v. Crosby, 545 U.S. 524 (2005)

4

5

Liljeburg v. Health Services Acquisition Corp., U.S. 847,863 (1988)

5

Peterson v. Secretary Department of Corr., 676 Fed. Appx. 827 829 (11th Cir.) (2017)
Oladeinde v. City of ** 1284 Birmingham, 230 F.3d 12751288 (11th circuit) (2000)

4-5
3

FROM:
TO:
SUBJECT: STATEMENT OF THE CASE
DATE: 05/28/2021 08:53:48 AM
STATEMENT OF THE CASE
The petitioner sought relief from the final judgment under Federal Rules of Civil Procedure 60(b)(6). Because the
Magistrate Judge and the District Cort misconstrues his Meritorious Ineffective Assistance of Counsel claim which
demonstrates his Actual Innocence in the petition to Vacate Sentence pursuant to 28 U.S.C. 2255. See Record (cv-doc.78, at
pp 1-6)
Reversible Error is shown in the District Courts Analysis. Because the District Court determined that "none of the
Petitioner's arguments prevail." Because "Magistrate Judge White's report notes that the superseding indictment reveals
that, contrary to movant's assertion, it did not specify that any particular boxes was used....it simply alleged that movant
used boxes at 4747 Hollywood Blvd (ECF No.42, at6-7)" and that "upon initial appeal, the Eleventh Circuit stated that the
Petitioners attempts to argue that his counsel was ineffective 'for failing to argue constructive amendment based on post
office box numbers is meritless'. (ECF No. 56, at 2). The Eleventh Circuit went on to state that 'no specific post office box
numbers were mentioned' in his indictment and '{e}ven if they were, the numbers are not an essential element of wire fraud'
(ECF No. 56, at 2-3). See (APPENDIX A, at p.2).
However, to the contrary of the Magistrate Judges report and the Eleventh Circuit decision, Mr. Wilmore alleged that
his indictment alleges that he "registered and caused to be re§istered 5 separate P.O. boxes:" See (APPENDIX B at 4). No
specific P.O. box number were alleged in the allegation presented in Mr. Wilmore section 2255 petition. Therefore the Law
of the case Doctrine does not apply because "the prior decision was clearly erroneous and would result in a manifest
injustice"
(Quoting Oladeinde v. City of * Birmingham, 230 F.30 1275, 1288 (11th Cir. 2000).

3

FROM:
TO:
SUBJECT: REASONS FOR GRANTING THE WRIT
DATE: 05/28/2021 09:00:17 AM
REASONS FOR GRANTING THE WRIT
When addressing the Petitioner's section 2255 petition, which alleges Ineffective Assistance of Counsel based upon
counsel's failure to raise a constructive amendment to the indictment. The Magistrate Judge determined that the Petitioner
alleged that his indictment alleges that he "caused to be registered five different P.O. boxes at 4747 Hollywood Blvd. with
specific numbers". See (APPENDIX C, at 5). But the Magistrate Judges assessment of the Petitioners habeas claim is simply
incorrect. Because to the contrary the Petitioner's 2255 motion said that the indictment alleged that he "registered and
caused to be registered 5 separate P.O. boxes:" (See APPENDIX B,at 4)
The Magistrate Judges version of the Petitioners claim is completely mischaracterized because it has been
misconstrued. However, the most significant error occurred when the Magistrate Judge disregarded the colon marks(:)
presented in the Petitioners habeas claim. This error played a very crucial role in the court's adjudication process. Because
the court took the facts presented after the colon marks, and merged them with the indictments allegation. Thereby
changing the narrative of the allegation (element) presented in the 2255 petition, to focus on the P.O. Box numbers placed
after the colon marks (:). This was fundamentally unfair, because a colon mark is used to separate two independent
clauses, when the second clause explains or illustrates the first. This error changed the merit of the Petitioners claim.
Because when the court adjudicated the habeas corpus claim, the specific P.O. box numbers placed after the colon marks
became the sole reason behind the factual findings and legal conclusions of the report. For example, the Magistrate Judges
reports states: "review of the superseding indictment reveals that, contrary to movants assertion, it did not specify that any
particular boxes were used. (cr-de#246). rather, it simply alleged that movant used boxes at 4747 Hollywood Blvd.(id). Thus,
movants claim is subject to summary denial on this basis alone". See (APPENDIX C, at 6-7)
The factual findings and legal conclusions of the report did not adjudicate the merits of the Petitioners habeas claim.
Because had the court made a reasonable assessment of the facts, it would have determined that the Petitioners section
2255 petition states that he "registered and caused to be registered" 5 separate P.O. boxes:" See (APPENDIX B at 4). No
specific P.O. boxes are presented in this allegation, when the colon marks provided are acknowledged.
These facts contradict the Magistrate Judges report, and support the fact that the judgment in this instant case is
unfair, because it is manifestly unjust. See Defense Distributed v. United States Dept. of State, 947 F.3d 870; (5th Cir.)
(2020). ("Reserving relief under 60(b)(6) for when the initial judgment has been manifestlytr414 These facts also
support that the District Court misconstrued the Petitioners habeas claim in adopting the report. See Peterson v. Sec'y dept.

of Corr., 676 Fed. Appx. 827, 829 (11th Cir.)(2017) (District court abused it's discretion in denying a Rule 60(b) motion for
reconsideration where movant contended the court failed to consider or misconstrued one of movants claims in his
underlying habeas corpus petition).
Furthermore, the District Court also misconstrued the facts in support of the evidence at trial. For Example, the report
states: "but that movants 'charges' contain only three P.O. boxes at 4747 Hollywood Blvd address, and those had different
box number?. See (APPENDIX C, at 5). This is simply incorrect because to the contrary of the report, the Petitioners 2255
motion states that his 'charges' contained single and double digit P.O. box numbers which had different box numbers,
meaning: P.O. Box "1" in Count 4", and P.O. Box "12" in Count 5, which support Actual Innocence. See (APPENDIX B at 4)
The Petitioner clearly did not allege that his 'charges' contained "three P.O. boxes" as the report incorrectly states.
Rule 60(b)(6) is available only in "extraordinary circumstances". See Gonzalez v. Crosby, 545 U.S.at 535. In determining
whether extraordinary circumstances are present a court may consider a wide range of factors. These may include, in an
appropriate case, "the risk of injustice to the Parties" and "the risk of undermining the public's confidence in the judicial
process". Buck v. Davis, 137 S.Ct.759, 777-78 (2017) (quoting Liljeberg v. Health Services Acquisitions Corp. 456
U.S.847,863-64 (1988)
The injustice in this particular case that risk undermining the public confidence in the judicial process is the fact
that the Petitioner presented a meritorious Ineffective Assistance of Counsel claim which demonstrates Actual Innocence.
See (APPENDIX B at 4). But the courts misconstructions and mischaracterizations prevent the petitioner from being entitled
to habeas corpus relief. Additionally, in the absence of relief from the final judgment, the Petitioner would be denied the
right to habeas corpus review as the Suspension Clause of the U.S. Constitution provides "the privilege of the writ of
habeas corpus shall not be suspended unless when in cases of rebellion or invasion the public safety may require it". See
Article. Section 9, Clause 2. Respectfully Submitted.
CONCLUSION
The Petitioner Prays that a Writ of Certiorari is issued in light of the facts that support Actual Innocence.

5

FROM:
TC
SUBJECT: CERTIFICATE
DATE: 05/27/2021 11:46:30 AM
CERTIFICATE
The Petitioner certifies that the Petition for Rehearing of the Writ of Certiorari is 1) Presented in Good Faith and not for
delay 2) The grounds are limited to intervening circumstances of a substantial or controlling effect or to other grounds not
previoysl% presented.

5- ag-- Dkoa
H VE 364E, JR. #02634-104
Coleman Federal Correction Complex
Satellite Camp / PO BOX 1021
COLEMAN, FL 33521

DATE

VERIFICATION
Under the penalty of perjury as authorized in 28 U.S.C. 1746, I declare that the factual allegations and factual statements
contained in this document are true and correct to the best of my knowledge.

(
HE

S'abaCtaNt

NFLMORE, JP) #02634-104

DATE

1

PROOF OF SERVICE
I, Herve Wilmore Jr, do swear or declare that on this date, MARCH 4th 2021 , as required by Supreme Court Rule 29,
I have served the enclosed Motion for Leave to Proceed in Forma Pauperis and a Petition for Rehearing of a Writ of
Certiorai on each party to the above proceeding or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United Stated mail, properly addressed to each, with first
class postage prepaid. Service has been made to :
SOLICITOR GENERAL
930 Pennsylvania Ave. NW
Room 5616
Washingto , D.C. 20530

C.
NERVE WILMORE, JR. # 02634-104
FCC COLEMAN, SATELLITE CAMP
P.O. BOX 1027
COLEMAN, FL 33521

U.S. SUPREME COURT
1 1st. St. NE
Washington, D.C. 20543

5-as aba
DATE

